                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 
                 

                 


                        Results and Benefits
                        Information Is Needed to
                        Support Impacts of EPA’s
                        Superfund Removal Program
                        Report No. 13-P-0176                    March 11, 2013




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Carolyn Copper
                                                   Steve Hanna
                                                   Roopa Batni
                                                   Tapati Bhattacharyya
                                                   Brooke Shull
                                                   Chad Kincheloe




Abbreviations

CERCLA          Comprehensive Environmental Response, Compensation, and Liability Act
CERCLIS         Comprehensive Environmental Response, Compensation, and Liability
                Information System
EPA             U.S. Environmental Protection Agency
GAO             U.S. Government Accountability Office
GPRA            Government Performance and Results Act
NPL             National Priorities List
OEM             Office of Emergency Management
OIG             Office of Inspector General
ORCR            Office of Resource Conservation and Recovery
OSC             On-Scene Coordinator
OSWER           Office of Solid Waste and Emergency Response
POLREP          Pollution Report
PRP             Potentially Responsible Party
SPIM            Superfund Program Implementation Manual


Cover photo:	     The River Road Drum Site, a 2010 Superfund emergency removal in
                  Morgantown, West Virginia. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                  13-P-0176
                                                                                                            March 11, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Results and Benefits Information Is Needed to Support
We conducted this review to
                                    Impacts of EPA’s Superfund Removal Program
determine the environmental
benefits and impact of the           What We Found
U.S. Environmental Protection
Agency’s (EPA’s) Superfund          EPA does not measure the environmental impact and benefits of the Superfund
removal program, and the            removal program. The goals of the program are measured by determining the
Agency’s plan to achieve its        number of removals completed rather than how removals protect human health and
future program goal. Superfund      the environment. This measurement limitation can diminish the perceived value of the
removals are used to respond        program and be an obstacle to a management focus on how removals contribute to
to emergencies or accidental        protection of human health and the environment. Information on removal program
releases of hazardous               impacts will allow EPA to better inform the public on the benefits of the program and
substances and mitigate             provide a strong foundation for budget requests. EPA’s current numeric removal goal
damage to the public or the         appears to be attainable based on past performance, although reductions in funding
environment from hazardous          or changes in state needs or capabilities may impact EPA’s ability to meet its goal.
substance releases. EPA has
established an annual               EPA’s information on removals—such as the type of removal, start and completion
Superfund removal goal of 170       dates, contaminant, and volume—is maintained in the Comprehensive Environmental
EPA-lead and 170 potentially        Response, Compensation, and Liability Information System (CERCLIS). However,
responsible party-lead              EPA’s system controls do not adequately monitor the completion of required removal
removals each fiscal year           actions in CERCLIS. For example, an action memo should be completed within
through 2015.                       5 business days of each removal start, but these were missing or late for about half of
                                    all removals completed in 2007–2011. Further, CERCLIS does not monitor approval
                                    of the required exemptions to ensure EPA is in compliance with Superfund law. Much
This report addresses the
                                    of the missing or inaccurate CERCLIS data may be in pollution reports that track
following EPA Goal or
                                    removal actions. However, although EPA staff said they were working on a process
Cross-Cutting Strategy:
                                    to ensure that pollution report data are accurately transferred to CERCLIS, no such
 Cleaning up communities         process currently exists. Accurate CERCLIS information is needed to ensure removal
    and advancing sustainable       actions are justified, completed on time, and address threats to human health and the
    development.                    environment.

                                     Recommendations and Planned Agency Corrective Actions
                                    We recommend that EPA identify environmental results and benefits of the removal
                                    program, communicate those results along with existing program results, and
                                    implement system controls to ensure required CERCLIS data are entered and
                                    completed. EPA agreed with the recommendations and provided acceptable
                                    corrective actions to enhance communications of program accomplishments and to
                                    control removals data integrity. CERCLIS is expected to be integrated into the
For further information, contact    Superfund Enterprise Management System by September 2013.
our Office of Congressional and
Public Affairs at (202) 566-2391.


The full report is at:
www.epa.gov/oig/reports/2013/
20130311-13-P-0176.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                         March 11, 2013

MEMORANDUM


SUBJECT:	 Results and Benefits Information Is Needed to Support Impacts of EPA’s
          Superfund Removal Program
          Report No. 13-P-0176


FROM:          Arthur A. Elkins Jr.


TO:	           Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Because you have provided a corrective action plan with
milestone dates, you are not required to provide a written response to this final report. Should
you choose to provide a response, your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. The Agency should track corrective
actions not yet fully implemented in the Management Audit Tracking System. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov, or Tina Lovingood at (202) 566-2906 or
lovingood.tina@epa.gov.
Results and Benefits Information Is Needed to                                                                               13-P-0176
Support Impacts of EPA’s Superfund Removal Program


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology..............................................................................                2

                Prior Evaluation Coverage ..........................................................................               3


   2	   Removal Goal Appears Attainable But Does Not 

        Communicate Environmental Results and Benefits .......................................                                     4


                EPA’s Removal Goal Appears Attainable If Resources Are Maintained .....                                            4

                Environmental Results and Benefits Are Not Communicated by Goal ........                                           7

                Conclusions .................................................................................................      7     

                Recommendation ........................................................................................            8

                Agency Response and OIG Evaluation .......................................................                         8


   3    System Controls Do Not Monitor Required Removal Information ................                                               9


                Missing or Inaccurate Removal Information Is Not Corrected .....................                                   9

                Conclusions .................................................................................................     13     

                Recommendation ........................................................................................           13 

                Agency Response and OIG Evaluation .......................................................                        14 


   Status of Recommendations and Potential Monetary Benefits..............................                                        15




Appendices
   A	   Agency Response to Draft Report and OIG Comment ...................................                                       16 


   B	   Distribution .........................................................................................................    19 

                                 Chapter 1

                                  Introduction
Purpose
            The purpose of this review was to determine whether there are opportunities for
            improved management in the U.S. Environmental Protection Agency’s (EPA’s)
            Superfund removal program, and whether resources could be better directed to
            meet the current program goal. We asked the following questions:

                  What are the environmental results and benefits achieved through
                   Superfund removals?
                  What is EPA’s plan to maintain its targeted level of Superfund removals
                   through 2015?

Background
            The Superfund removal program provides responses to immediate threats to
            public health and the environment from releases of hazardous substances,
            pollutants or contaminants. The program is authorized under the 1980
            Comprehensive Environmental Response, Compensation, and Liability Act
            (CERCLA). CERCLA was reauthorized in 1986 by the Superfund Amendments
            and Reauthorization Act. Superfund removal actions are guided by the National
            Oil and Hazardous Substances Pollution Contingency Plan, commonly referred to
            as the National Contingency Plan.

            Superfund removals are intended to prevent, minimize, or mitigate damage to the
            public or the environment at sites where hazardous substances have been released
            or are threatened to be released. If a site presents a relatively time-sensitive,
            non-complex problem that should be addressed inexpensively, EPA will normally
            address the problem by use of removal authority. However, even expensive and
            complex response actions may be removal action candidates if they are relatively
            time-sensitive. Removals are characterized as either fund-lead or potentially
            responsible party (PRP)-lead actions. Fund-lead removals are paid for by EPA,
            while PRP-lead removals are paid for by PRPs.

            To make a clear distinction between long-term remedial actions and removals,
            Congress placed limits on the time and money available to conduct a removal
            response. An EPA-lead (i.e., “fund-lead”) removal may not exceed $2 million in
            spending or 12 months in duration. The limits may be extended if required to
            address an emergency that will cause an immediate risk to public health or the
            environment. The limits may also be extended if the removal is consistent with
            remedial actions taken at proposed or final NPL sites. A regional administrator


13-P-0176                                                                                     1
            must approve fund-lead removals that exceed the statutory limits of $2 million or
            12 months. Fund-lead removal actions exceeding $6 million must be approved by
            the Assistant Administrator for the Office of Solid Waste and Emergency
            Response (OSWER).

            Removals are placed in one of three categories:

               	 Classic emergencies – Action required within minutes or hours.
               	 Time-critical – Less than 6 months available before the removal action
                  must be initiated. Specific community relations and administrative record
                  actions are required.
               	 Non-time-critical – A planning period of more than 6 months is available
                  before removal actions must begin. An engineering analysis and cost
                  evaluation are required.

            Classic emergencies and time-critical removals are managed by OSWER’s Office
            of Emergency Management (OEM). Non-time-critical removals are managed by
            OSWER’s Office of Superfund Remediation Technology and Innovation. OEM’s
            top priority is to eliminate any danger to the public and the environment posed by
            hazardous substance releases and oil spills. OEM provides funding to EPA
            regional offices for management of removals. Regional on-scene coordinators
            (OSCs) document the status of removals in pollution reports (POLREPs).
            Information on removals, such as the type of removal, start and completion dates,
            contaminant, and volume, is captured and maintained in the Comprehensive
            Environmental Response, Compensation, and Liability Information System
            (CERCLIS). According to the 2012 Superfund Program Implementation Manual
            (SPIM), CERCLIS will be integrated into the Superfund Enterprise Management
            System by September 2013.

            EPA has developed a national goal of 170 fund-lead removals and 170 PRP-lead
            removals each fiscal year through 2015.

Scope and Methodology
            We conducted our work from March 2012 to November 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe the evidence obtained provides a reasonable basis for our
            findings and conclusions based upon our objectives.

            We interviewed OSWER staff, including staff in OEM and the Office of
            Superfund Remediation and Technology Innovation; and staff of EPA Regions 3,
            4, 5, and 9. Regions selected included those with both high and low numbers of
            removals per year.



13-P-0176                                                                                      2
            We reviewed EPA programs, regulations, and guidance documents related to
            removals including relevant sections of CERCLA, the National Contingency Plan,
            SPIM, OSC website guidance documents, and OEM’s Strategic Direction for
            Emergency Management Programs Fiscal Years 2010-2014. We also reviewed
            performance goals and program measures of the OEM removal program.

            Our review focused on fund-lead removals. We reviewed removals data from
            CERCLIS for all 10 EPA regions to assess how program requirements are
            tracked. We also reviewed POLREPs for selected removal sites to compare
            information with CERCLIS and to review data not available in CERCLIS.

Prior Evaluation Coverage

            The following Office of Inspector General (OIG) and U.S. Government
            Accountability Office (GAO) reports addressed issues related to the scope of our
            review:

                  OIG Report No. 09-P-0144. EPA Needs to Improve Internal Controls to
                   Increase Cost Recovery, April 27, 2009.
                  GAO Report No. GAO-08-841R, Superfund: Funding and Reported Costs
                   of Enforcement and Administration Activities, July 18, 2008.
                  OIG Report No. 2006-P-00013, EPA Can Better Manage Superfund
                   Resources, February 28, 2006.




13-P-0176                                                                                      3
                                               Chapter 2

       Removal Goal Appears Attainable But Does Not 

      Communicate Environmental Results and Benefits 

                   OEM’s annual Superfund removal goal appears to be attainable based on past
                   performance. However, there are factors that can impact EPA’s ability to achieve
                   its goal, such as possible decreases in program funding or changes in state
                   capabilities to respond to removals. In addition, the goal does not demonstrate the
                   environmental results and benefits of the removal program. The goal simply
                   counts removal completions and thus does not reflect the impact of removal
                   actions. Consequently, the environmental results and benefits of EPA’s Superfund
                   removal program are not measured or communicated, which could diminish the
                   perceived value of the program and be an obstacle to effective management
                   focused on program results and impact.

EPA’s Removal Goal Appears Attainable If Resources Are Maintained
                   EPA’s 2011-2015 Strategic Plan establishes a Government Performance and
                   Results Act (GPRA) goal to complete 1,700 removals by 2015. Annual targets are
                   170 each for fund-lead and PRP-lead removal completions. EPA reported that it
                   has exceeded its removal goal since fiscal year 2007 (figure 1). The goal of 170
                   fund-lead and 170 PRP-lead removals began in 2010 and was met in fiscal years
                   2010 and 2011. Therefore, EPA’s ability to maintain this goal through 2015
                   appears attainable. However, staff in one regional office expressed concern about
                   the long-term viability of the goal. Staff stated that state removal response
                   capabilities in the region had improved, so EPA assistance was only requested for
                   larger and more expensive removals.1

                    Figure 1: Removals – target goal and actual




                     Source: EPA 2013 budget justification

1
    Results and benefits from fewer EPA removals cannot yet be measured.


13-P-0176                                                                                            4
            We identified issues that could impact EPA’s ability to continue to meet the fund-
            lead removal goal:

               1.	 Basing the goal on historical trends – EPA’s removal goal is based on
                   past trends in removal actions conducted. Because removals are responses
                   to immediate threats, an estimate of the number that will occur in future
                   years may be inaccurate.

               2.	 Decreases in program funding – Annual funding for the emergency
                   response and removal program has historically been about $200 million.
                   However, in recent years funding for removals has declined (figure 2). If
                   program funding continues to decrease, the Agency’s ability to respond to
                   both emergency and long-term, expensive removals may be impacted.

            Figure 2: EPA removals budget




             Source: OEM. (Note – numbers represent the enacted budget for each year
             except 2013, which represents the projected amount.)


               3.	 Changes in state capabilities or funding – If a state’s capacity to
                   respond to removals diminishes due to funding reductions or other impacts
                   on resources, this could create an increased demand for EPA’s response
                   resources. On the other hand, if state response capabilities improve and
                   EPA’s assistance is needed less, EPA could have fewer removals to count
                   toward itsgoal.

               4.	 Impact of large removals – EPA recognizes that some removals require
                   more resources or time than others. EPA’s Fiscal Year 2013 Justification
                   of Appropriation Estimates for the Committee on Appropriations states,
                   “In recent years, emergency response and removal activities have grown
                   more complicated, such as large lead and asbestos cleanups, requiring



13-P-0176                                                                                     5
            more resources and time to complete.” Examples of such removals 

            include: 


                 	 Lead – One removal in Alabama required more than $6 million
                    and 4 years, from 2002-2006. The contaminants were lead and
                    polychlorinated biphenyls present in residential yards. EPA
                    sampled more than 2,000 properties and removed soil from 175 of
                    them.
                 	 Asbestos – This time-critical removal in New York cost more than
                    $8 million and lasted about 16 months in 2010-2011. EPA
                    determined that the 14.5-acre site contained asbestos and
                    hazardous materials that presented direct contact threats to the
                    public. EPA removed 14,500 tons of asbestos-contaminated
                    demolition debris from the site.

            Fund-lead removals that exceed the statutory limits of $2 million in
            removal costs or 12 months duration represent a significant amount of
            removal resources. OIG analysis of data on removals completed from
            2007 through 2011 indicates that sites exceeding these limits account for
            approximately 72 percent of the funding obligations (figure 3). In contrast,
            these sites represent only 15 percent of the total sites, indicating that a
            relatively small number of sites represents a large portion of the costs
            during the time period we reviewed. The impact of these removals is not
            reflected in the current goal that simply counts the total number of
            removals. For example, the two removals described above would count the
            same as small removals requiring only a few days and several thousand
            dollars. Because removals such as these require more resources and time
            than other removals, they could affect EPA’s ability to meet its current
            numeric goals.
            Figure 3: Obligations for sites exceeding statutory removal limits




            Source: OIG analysis of CERCLIS data.



13-P-0176                                                                             6
Environmental Results and Benefits Are Not Communicated by Goal
            OEM’s overall mission is the protection of human health and the environment
            from exposure to accidental releases of hazardous substances, pollutants or
            contaminants. Various strategic planning, annual performance planning, guidance,
            and budget documents reflect the importance of the removal program to protect
            the public from exposure to accidental releases of harmful substances. The current
            removal goal of conducting 170 fund-lead and 170 PRP-lead removals each fiscal
            year does not reflect this mission and does not describe the removal program’s
            environmental results and benefits.

            In response to a 2005 Office of Management and Budget assessment of the
            removal program’s performance, OEM committed to developing measures that
            track the program’s impact on human health and the environment. OEM
            management stated that they have attempted to develop a goal more directly
            related to their mission but acknowledged that they have not yet succeeded. This
            was attributed to the GPRA requirement for a goal that could be easily counted,
            resulting in the existing goal that tallies all removal completions irrespective of
            their impact, duration, or cost.

            In the past, OEM provided information on the impact of removals in annual
            reports, but it no longer reports this information. For example, in a 2009 report,
            OEM stated that EPA removals prevented an estimated 1,900,000 human
            exposures, identified the major contaminants, and provided additional detail on
            3 large removals. This type of information can convey the impact and benefits of
            the Superfund removal program, but this type of information is not included in the
            Agency’s removal goals.

Conclusions
            The effectiveness, impact, and value of EPA’s removal program is not measured
            or communicated. Although EPA’s numeric removal goal appears to be attainable
            based on past performance, changes in funding or state needs or capabilities may
            impact EPA’s ability to meet its goal. EPA’s Superfund removal program appears
            likely to provide significant environmental benefits and human health protection.
            However, the program’s inability to convey those benefits could diminish the
            perceived value of the removal program and impede management that is focused
            on program results and impact.




13-P-0176                                                                                         7
Recommendation
            We recommend the Assistant Administrator for Solid Waste and Emergency
            Response:

               1.	 Define environmental results and benefits of the removal program,
                   and communicate these results and outcomes with the existing
                   removal goal outcomes.

Agency Response and OIG Evaluation
            OSWER agreed with our recommendation and provided a corrective action plan
            with goals and milestone dates. The plan includes reporting on the top 10
            contaminants of concern each fiscal year, reporting on total contaminant volumes
            for removals, highlighting program accomplishments in OSWER publications
            such as the annual OSWER Accomplishments Report, and working with EPA
            regions to document success stories. OSWER has also committed to continue
            working with the regions to better define the environmental results and benefits of
            the removal program. Based on the Agency’s response, this recommendation is
            open with corrective actions underway. Appendix A contains OSWER’s response
            to our draft report and planned actions to address our recommendation. We
            reviewed OSWER’s technical comments and made revisions to the report as
            appropriate.




13-P-0176                                                                                     8
                                         Chapter 3

                     System Controls Do Not Monitor 

                      Required Removal Information 

                CERCLIS – EPA’s Superfund performance accomplishment planning and
                tracking system – does not adequately track key data that EPA has determined to
                be a requirement for removals. While CERCLIS contains almost all data elements
                necessary, data were missing or incomplete in approximately half of the removals
                we reviewed. Interviews with EPA regional staff confirmed that data were
                available in POLREPs but had not been entered into CERCLIS. However, in
                some instances statutory exemptions were not met. Without consistent and
                complete data, EPA cannot effectively monitor removals to ensure all removal
                actions are justified and approved, are completed on time, and address the threat
                to public health and the environment.

Missing or Inaccurate Removal Information Is Not Corrected

                Specific Data Required by EPA

                CERCLIS is the Superfund program’s data management system.2 EPA uses
                CERCLIS data to track, manage, and report on program performance. Data are
                entered into CERCLIS by EPA regional staff. CERCLIS data entry requirements
                are specified in the annual SPIM and are implemented through data entry control
                plans established by each EPA region.

                The fiscal year 2012 SPIM includes specific planning and reporting requirements.
                For example, it requires that “Upon completion of a removal, an action qualifier
                must be recorded to identify whether the removal resulted in the site being
                Cleaned Up or Stabilized. This is both a Government Performance and Results
                Act (GPRA) annual performance goal and GPRA measure.” In addition, it
                required the following removal program data elements to be entered into
                CERCLIS; if these fields are left blank the removal will not count toward the
                GPRA annual performance goal:




2
 According to the 2012 SPIM, CERCLIS will be integrated into the Superfund Enterprise Management System by
September 2013.


13-P-0176                                                                                                    9
                  Removal Action Name                   Media Name 

                  Removal Lead                          Media Type 

                  Removal Action Critical               NPL/Non-NPL 

                   Indicator                             Site Type 

                  Action Qualifier                      Volume (estimate) 

                  Start Date                            Contaminant 

                  Completion Date                       Contaminant of Concern 


            In addition to these requirements, we have identified other requirements for
            removals specified in Superfund statutes, regulations, or guidance documents.
            These additional requirements include:

               	 Action memorandum – An action memo should be completed as soon as
                  practicable or within 5 business days of a removal start date. EPA’s
                  September 2009 action memo guidance illustrates the importance of the
                  action memo for a removal. According to this guidance, the action memo
                  is the primary decision document that:
                       - Determines the need for a CERCLA removal action. 

                       - Authorizes the removal action. 

                       - Identifies the applicable action and cleanup levels. 

                       - Explains the rationale for the removal response. 

               	 12 month or $2 million exemption – An exemption approved by a
                  regional administrator is required for fund-lead removals exceeding
                  $2 million or 12 months.
               	 $6 million exemption – An exemption approved by the OSWER assistant
                  administrator is required for fund-lead removals exceeding $6 million.
               	 Community involvement – EPA’s 1992 “Public Participation Guidance
                  for On-Scene Coordinators: Community Relations and the Administrative
                  Record” specifies community involvement requirements for all removals,
                  and additional requirements for removals longer than 120 days.
               	 POLREP – A POLREP is required at the start (initial POLREP) and
                  completion (final POLREP) of a removal action. In some instances,
                  response activities require only one POLREP, which serves as both an
                  initial and final POLREP.

            Entry of Required CERCLIS Data Not Monitored

            We reviewed CERCLIS data for 1,079 fund-lead removals in all regions
            completed from 2007 through 2011. We identified the following problems with
            required data:

                   	 Removal completion –We found completed removal actions in
                      CERCLIS that appeared to be incomplete simply because staff had not
                      entered the completion date into CERCLIS.




13-P-0176                                                                                   10
                      	 Action memo completion – Approximately 26 percent of the removals
                         we reviewed had no action memo associated with the removal in
                         CERCLIS (figure 4). An additional 23 percent had late action memos.3
                           Figure 4: Completion of action memos in CERCLIS


                                         Action Memo Completion
                                                                              Missing
                                                                               26%




                                Timely
                                 51%




                                                                              Late
                                                                              23%


                          Source: OIG analysis of CERCLIS data.


                      	 Exemption approval for fund-lead removals longer than 12 months or
                         more than $2 million – CERCLIS contains specific flags to identify
                         approval of each exemption, but the flags are not routinely used.
                         CERCLIS could readily be used to monitor the completion of the
                         exemption approvals using the existing flags, and generate reports to
                         inform EPA management and staff of the need for the exemption
                         approvals. Without such monitoring there is no assurance that the
                         exemption approvals are being completed as required by statute.
                         Completion of the exemption approvals is important for EPA compliance
                         with Superfund law, and also ensures EPA management is aware of large
                         expenditures that account for well over half of the removal costs.
                      	 Exemption approval for fund-lead removals more than $6 million –
                         CERCLIS does not utilize any reporting mechanisms to monitor the
                         completion of the exemption approvals. Regions we interviewed
                         confirmed that these exemption approvals were obtained as appropriate.
                      	 Start of time-critical removals within 6 months – We found 33
                         removals identified as time-critical that had not begun within 6 months.
                         A time-critical removal is defined as a removal that needs to be started
                         within 6 months, as measured from the date of the initial action memo. We
                         also observed some CERCLIS entries for time-critical removals that had

3
  “Late” action memos were identified as more than 7 calendar days from the removal start, to account for the
requirement for completion of the initial action memo as soon as practicable or within 5 business days.


13-P-0176.                                                                                                      11
                    not yet started with planned start dates either more than 6 months in the
                    future or more than 6 months in the past. These observations raise the
                    question of why these are classified as time-critical removals instead of
                    non-time-critical.
                   Missing data – We found three removals that did not have an entry to
                    indicate if the removal was emergency, time-critical, or non-time-critical.
                    We also found one instance of a removal that was completed, based on the
                    presence of a completion date, but was missing a removal start date. While
                    these represent a small portion of the removals, they demonstrate the
                    absence of system controls to require the entry of mandatory data.

             Based on the above issues, we believe CERCLIS is not being adequately utilized
             by EPA to monitor removals. These data entry issues identify problems with
             monitoring the completion of required entries for removals, and indicate missing
             controls that could readily identify possible issues as they occur. Following
             interviews with the regions, we requested additional information on the
             completion of 17 specific 12-month or $2-million exemptions. The responses
             indicated that 4 of the 17 exemptions had not been completed. This emphasizes
             the need to use CERCLIS as a management control to ensure that time-sensitive
             actions are completed as required. Reports from CERCLIS could identify time-
             sensitive actions that are overdue, such as the start of time-critical removals.
             Reports could also identify time-sensitive actions that are pending in the near
             future to provide assistance to program managers.

             Regional staff we interviewed generally expressed frustration about the
             difficulties with using CERCLIS, which could explain some of the missing or
             incorrect data we observed. This may be addressed by the pending redesign of
             CERCLIS. According to the 2012 SPIM, CERCLIS will be integrated into the
             Superfund Enterprise Management System by September 2013.

             Data Entered in POLREPs May Not Be Consistent with CERCLIS

             The National Contingency Plan requires the OSC to submit pollution reports to
             the Regional Response Team and other appropriate agencies as significant
             developments occur during response operations. OSCs prepare POLREPs at the
             initiation and completion of a removal action and at regular intervals in between.
             The POLREP serves as the OSC’s record of response actions, notifications, and
             decisions made to support the response action. POLREPs address:

                   The source and circumstances of the release.
                   The identity of PRPs.
                   The removal activities performed.
                   The costs incurred for the removal activities.
                   The impact and potential impact of the release on public health and
                    welfare, and on the environment.



13-P-0176.                                                                                    12
             The final POLREP documents that all proposed tasks have been completed as
             outlined in the action memo, thereby establishing the completion date for the
             removal. The final POLREP also summarizes the results achieved by the removal
             or response action, including a summary of the wastes disposed of throughout the
             course of the response or cleanup, as well as providing the basis for information
             needed by EPA to measure the progress of the removal program.

             Regional OSCs use POLREPs as the primary tool to document removal response
             actions occurring at a site. Information regarding sites is also entered into the
             CERCLIS database. Both POLREPs and CERCLIS can be accessed by OEM to
             track removal response actions at sites; therefore, information from the two data
             sources should be accurate, updated, and consistent.

             During our review of regional removal sites we identified information, such as
             removal completion dates, that was present in POLREPs but not CERCLIS. As a
             result, the data entered may be inaccurate or missing in CERCLIS but accurate
             and included in the site POLREP. The inconsistencies in data entry and
             transmission between POLREPs and the CERCLIS database present a problem by
             allowing differing data to reside in two locations. This could lead to incorrect
             conclusions about the status of removals. During our discussions with OEM and
             OSWER–CERCLIS staff, we were informed that CERCLIS staff, with OEM and
             regional staff participation, are creating a mechanism to synchronize the
             information documented in POLREPs with CERCLIS.

Conclusions
             A review of removals data in CERCLIS showed that system controls were
             missing. As a result, information requirements – such as removal completion
             dates, action memos, timely start of time-critical removals, and exemptions for
             removal duration and cost – were not met for some removals. We also found that
             information entered by OSCs in POLREPs may differ or be absent from
             CERCLIS. Accurate information is necessary to assure removals are justified and
             are monitored for timely completion. Timely completion of removal actions is
             critical to provide assurance that the public and environment are protected from
             exposure to harmful substances.

Recommendation
             We recommend the Assistant Administrator for Solid Waste and Emergency
             Response:

                2. Implement system controls to:

                    a. Ensure required CERCLIS data are entered and completed.
                    b. Synchronize data between POLREPs and CERCLIS.



13-P-0176.                                                                                   13
Agency Response and OIG Evaluation
             OSWER agreed with the recommendation and provided a corrective action plan
             with goals and milestone dates. OSWER is working to develop a report to inform
             managers as to which removals need additional data in CERCLIS. OSWER is
             also working to connect the final POLREP with CERCLIS in the implementation
             of the Superfund Enterprise Management System, which is expected to replace
             CERCLIS in fiscal year 2014. Based on the Agency’s response, this
             recommendation is open with corrective actions underway. Appendix A contains
             OSWER’s response to our draft report and planned actions to address our
             recommendation. We reviewed OSWER’s technical comments and made
             revisions to the report as appropriate.




13-P-0176.                                                                               14
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                      BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1      Action Official           Date      Amount      Amount

     1        8     Define environmental results and benefits of the        O    Assistant Administrator   9/30/2014
                    removal program, and communicate these results                for Solid Waste and
                    and outcomes with the existing removal goal                  Emergency Response
                    outcomes.

     2       13     Implement system controls to:                           O    Assistant Administrator   9/30/2013
                      a. Ensure required CERCLIS data are entered                 for Solid Waste and
                         and completed.                                          Emergency Response
                      b. Synchronize data between POLREPs and
                         CERCLIS.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0176.                                                                                                                                15
                                                                                        Appendix A

                   Agency Response to Draft Report
                         and OIG Comment

MEMORANDUM
SUBJECT:       Response to OIG’s draft report entitled: “Results and Benefits Information Is
               Needed to Support Impacts of EPA’s Superfund Removals Program.” Project No.
               OPE-FY12-0012, dated November 28, 2012

FROM:          Mathy Stanislaus
               Assistant Administrator

TO:            Carolyn Copper
               Assistant Inspector General for Program Evaluation

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall views, along with its views on each of the
report recommendations. The agency generally agrees with the report recommendations which
parallel efforts we have been addressing. Accordingly, we have provided high-level intended
corrective actions and estimated completion dates. For your consideration, we have included a
Technical Comments Attachment to supplement this response.

AGENCY’S OVERALL VIEWS

In response to the OIG’s Draft Report, “Results and Benefits Information Is Needed to Support
Impacts of EPA’s Superfund Removals Program,” EPA generally agrees with the
recommendations in this report and describes our efforts as discussed with your staff. With
respect to Chapter 3, System Controls Do Not Monitor Required Removals Information, we are
primarily concerned that the draft report does not truly take into account discussions about
moving away from CERCLIS towards the Superfund Enterprise Management System (SEMS).
For example, we will not be adding a data element to track the $6 million exemption or any other
enhancements; those will not be implemented in CERCLIS, but could be added to SEMS
requirements, if the program determines those elements are needed in the database.

In addition, there are areas of the report that need clarification. Those areas are specifically
described in the Technical Comments Attachment.




13-P-0176.                                                                                         16
Agreements

No.   Recommendation                   High-Level Intended       Estimated Completion by
                                       Corrective Action(s)      Quarter and FY
1     Define environmental results and a. OEM will continue to a. FY13 and ongoing
      benefits of the removals            report the top ten
      program, and communicate these      contaminants of
      results and outcomes with the       concern each fiscal
      existing removals goal outcomes.    year, and will begin
                                          reporting on total
                                          volume for removals
                                          beginning FY13.
                                       b. OEM will continue to b. Ongoing
                                          highlight program
                                          accomplishments in
                                          OSWER publications,
                                          including the annual
                                          OSWER
                                          Accomplishments
                                          Report.
                                       c. OEM will continue to c. Beginning FY 13 and
                                          work with the Regions      once per quarter
                                          and Special Teams to       throughout the fiscal
                                          build a repository of      year
                                          removal success
                                          stories, which we will
                                          use to communicate
                                          program benefits on
                                          the EPA web site and
                                          other channels.
                                       d. OEM will continue      d. Complete by 4th
                                          looking into               quarter FY2014
                                          delineating different
                                          types of removal
                                          completions to
                                          communicate impacts
2     Implement system controls to:    a. OEM will notify the    a. Ongoing
          a. Ensure required              Region(s) of any
              CERCLIS data are            discrepancies in
              entered and completed.      CERCLIS.
          b. Synchronize data          b. Synchronize data       b. 4th Quarter FY2013
              between POLREPs and         fields in the final
              CERCLIS.                    POLREP to fields in
                                          the Superfund
                                          Enterprise
                                          Management System



13-P-0176.                                                                              17
                                           (SEMS). SEMS will
                                           replace CERCLIS in
                                           FY 2014.

Disagreements

While OSWER generally agrees with the recommendations, there are some nuances (for
example, the program needs to determine whether all data elements need to be synched between
POLREPS and SEMS, the replacement for CERCLIS) and ongoing efforts as well as technical
corrections that are provided in the attached technical comments.

OIG Response: The OIG acknowledges the ongoing efforts of OSWER to address the
synchronization of the appropriate data elements between POLREPS and SEMS. The OIG
reviewed the technical comments and made revisions to the report as appropriate.


Should you have any questions regarding this memorandum, please contact Dana Tulis, Deputy
Director, Office of Emergency Management at 202-564-8600.




13-P-0176.                                                                                 18
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Deputy Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Emergency Management, Office of Solid Waste and
   Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




13-P-0176.                                                                          19
